U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 2, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Carlos Miguel Perez v. United States of America,
S.Ct. No. 20-6212

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 30
2020, and placed on the docket on November 5, 2020. The government’s response is due on
December 7, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 6, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6212
PEREZ, CARLOS MIGUEL
USA

MARGARET YVONNE FOLDES
FEDERAL PUBLIC DEFENDER'S OFFICE
1 E. BROWARD BLVD.
STE. 1100
FORT LAUDERDALE, FL 33301
9543567436

